r
!

IN THE SUPREME COURT OF THE UNITED STATES
IN RE MICHAEL K. CIACCI
ON PETITION FOR EXTRAORDINARY WRIT TO THE SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
WRIT OF MANDAMUS
Michael K. Ciacci, pro se
67-328 Kaliuna Street, Waialua, Hawaii 96791
808-636-6670

FILED
APR 0 3 2021
OFFICE OF THE CLERK
SUPREME COURT IIS

r

QUESTIONS PRESENTED
Whether the scope of the savings clause under District of Columbia Code Section
23-110(g) is open to a claim supported by judicial failure to recuse?
Whether petitioner's ineffective assistance of counsel claim has exhausted
District of Columbia state remedies?

I

LIST OF PARTIES
Michael K. Ciacci, the pro se petitioner,
and defendant in case no. 2011-CF2-012334, United States v. Michael K. Ciacci, in
Superior Court of the District of Columbia
United States, the respondent,
represented by the United States Attorneys Office for the District of Columbia

RELATED CASES
Ninth Circuit Court of Appeals, case no. 20-16338, Michael K. Ciacci v. United States
Probation Office, certificate of appealability denial entered August 18,2020.
United States District Court for the District of Hawaii, case no. 1:20-CV-00271, Michael
K. Ciacci v. United States Probation Office, 28 U.S.C. Section 2254 dismissal
entered June 26,2020.
Ninth Circuit Court of Appeals, case no. 19-16896, Michael K. Ciacci v. United States
Probation Office, certificate of appealability denial entered February 26,2020.
United States District Court for the District of Columbia, case no. l:19-CV-03795, Ciacci
v. United States Parole Commission, 42 U.S.C. Section 1983, filed December, 11,
2019, pending disposition of motion to dismiss; excessive sentence violation.
United States District Court for the District of Hawaii, case no. l:19-CV-00476, Michael
K. Ciacci v. United States Probation Office, 28 U.S.C. Section 2254 dismissal

U

entered September 16,2019.
District of Columbia Court of Appeals, case no. 15-CO-334, Michael K. Ciacci v. United
States, affirmance entered September 21,2016.
United States District Court for the Eastern District of North Carolina, Western Division,
case no. 5:15-HC-2062-F, Michael K. Ciacci v. Tripp, 28 U.S.C. Section 2254
dismissal entered December 15,2015.
Supreme Court of the United States, case no. 15-6247, Writ of Certiorari to District of
Columbia Court of Appeals order denying motion for leave to withdraw, petition
denial entered November 2,2015.
District of Columbia Court of Appeals, case no. 13-CF-1359, Michael K. Ciacci v. United
States, Memoranda Order and Judgment entered July 10,2015.
District of Columbia Court of Appeals, case no. 14-OA-0030, Michael K. Ciacci v.
Honorable Michael Ryan, petition for writ of mandamus entered October 3,2014.
District of Columbia Court of Appeals, case no. 13-OA-0058, Michael K. Ciacci v.
Honorable Michael Ryan, petition for writ of mandamus entered December 18,
2013.

«,*

III

TABLE OF CONTENTS
PAGE NO.
OPINIONS BELOW

1

JURISDICTIONAL STATEMENT

1

CONSTITUTIONAL AND STATUTORY PROVISIONS

1

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE WRIT

24

CONCLUSION

39
INDEX TO APPENDICES

Appendix A - Superior Court of the District of Columbia 2nd Section 23-110 motion
Appendix B - Ninth Circuit Court of Appeals 2nd denial certificate of appealability
Appendix C - United States District Court, District of Hawaii 2nd dismissal order
Appendix D - Ninth Circuit Court of Appeals 1st denial certificate of appealability
Appendix E - United States District Court, District of Hawaii 1st dismissal order
Appendix F - United States District Court, Eastern District, North Carolina, Western
Division dismissal order
Appendix G - District of Columbia Court of Appeals memoranda order and judgment
Appendix H - Supreme Court Rule 14(f),(i)(v) constitutional provisions, statutes, rules
Appendix I - Superior Court of the District of Columbia 1st Section 23-110 motion
Appendix J - Email between petitioner and the trial court
Appendix K - Sentencing hearing transcript excerpt

iV

Appendix L - Trial exhibit list
Appendix M - Trial counsel stipulations
Appendix N - Government trial exhibits
Appendix O - Defense DNA test
Appendix P - Suppression hearing transcripts
Appendix Q - Email between trial counsel and the government
Appendix R - Trial counsel suppression motion
Appendix S - Discovery communications
Appendix T - Grand jury transcripts
Appendix U - Complainant's medical records
Appendix V - Crime Scene police officer report
Appendix W - Supplemental police report
TABLE OF AUTHORITIES
Cases
Abdullah v. Hedrick, 392 F.3d 957 (8th Cir. 2004)

25

Alcorta v. Texas, 355 U.S. 28 (1957)

32

Brown v. Caraway, 719 F.3d 583,597 (7th Cir. 2013)

27

Caperton v. A.T. Massey Coal Co., 556 U.S. 868 (2009)

28,35

Chambers v. Mississippi, 410 U.S. 284 (1973).

34

DH Overmyer Co. v. Frick Co., 405 U.S. 174 (1972)

31

V

Draughon v. Dretke, 427 F.3d 286,296 (5th Cir. 2005)

31

Gilbert v. United States, 640 F.3d 1293 (11th Cir. 2011 )(en banc)

27

Glosser v. United States, 315 U.S. 60 (1942)

35

In re Bradford, 660 F.3d 226,230 (5th Cir. 2011)

27-28

In re Davenport, 147 F.3d 605, 611 (7th Cir. 1998)

24-26

In re Winship, 397 U.S. 358 (1978)

31

Johnson v. Zerbst, 304 U.S. 458 (1938)

30,35

Jones v. Cunningham, 371 U.S. 236 (1963)

27

Mayberry v. Pennsylvania, 400 U.S. 455 (1971)

28

Mooney v. Holohan, 294 U.S. 103 (1935)

31-32

Mullaney v. Wilbur, 421 U.S. 684 (1975)

31

Murray v. Carrier, 477 U.S. 478 (1986)

27

Ohio Bell Tel. Co. v. Public Utilities Comm'n, 301 U.S. 292 (1937)

31

Pyle v. Kansas, 317 U.S. 213 (1942)

31-32

Rose v. Lundy, 455 U.S. 509 (1982)

35

Schlup v. Delo, 513 U.S. 298 (1995)

27

Strickland v. Washington, 466 U.S. 668 (1984)

32-33

Swain v. Pressley, 430 U.S. 372,381,384 (1977)

27

United States v. Agurs, 427 U.S. 97 (1976)

30

United States v. Hayman, 342 U.S. 205 (1952)

27

Vi

Wofford v. Scott, 177 F.3d 1236 (11th Cir. 1999)

27

Statutes and Rules
District of Columbia Code Section 22-401 Assault with intent to kill

2,5

District of Columbia Code Section 22-402 Assault with dangerous weapon

2,5,10,33

District of Columbia Code Section 22-404(a)(2) Assault significant bodily injury 2,5,11,33
District of Columbia Code Section 22-404.01 Aggravated assault
District of Columbia Code Section 22-4502 While armed

2,5-7,9-10,16,33
2,5-6,10,16,33

District of Columbia Code Section 23-110(a)

1-7,24-26,35,37

District of Columbia Code Section 23-110(g)

2-3,26-28,35

District of Columbia Code Section 24-403.01 Sentencing, supervised release.

2,5-6

Title 28 United States Code Section 1651(a)

1-2

Title 28 United States Code Section 2241(a)

2,27

Title 28 United States Code Section 2254(a)

2-5,26,37

Title 28 United States Code Section 2255(e)

2,27-28

Superior Court of the District of Columbia Criminal Procedure Rule 16

2,16-17,30

Superior Court of the District of Columbia Criminal Procedure Rule 17

2,17,38-39

Superior Court of the District of Columbia Criminal Procedure Rule 33

2,4,17,38-39

District of Columbia Court of Appeals Rule 21

2,18,39

District of Columbia Court of Appeals Rule 41

2,36

t *

VII

EXTRAORDINARY WRIT OF MANDAMUS
Petitioner respectfully prays that a Writ of Mandamus issue to review the
judgment below.

Opinion below, case no. 2011-CF2-012334, United States v. Michael K. Ciacd in
the Superior Court of the District of Columbia, second D.C. Code Section 23-110(a)
motion to vacate, set aside or correct sentence and judgment (Appendix A) is pending
disposition and is unpublished, and the further related opinions and orders below are
also unpublished.
lurisdictional statement
The basis for jurisdiction in this Court is 28 U.S.C. 1651(a), Rules of the Supreme
Court of the United States Rule 20 extraordinary writ of mandamus to the Superior
Court of the District of Columbia. Petitioner's second D.C. Code Section 23-110(a)
motion to vacate, set aside, or correct sentence and judgment, is an original motion,
pending action since it has been entered on June 30,2020.

Constitutional provisions - see Apppndix H
Article HI, Section H, Clause HI of the United States Constitution
The Sixth Amendment to the United States Constitution
The Due Process Clause of the Fourteenth Amendment to the United States Constitution

I

Statutes - see Appendix H
District of Columbia Code Section 22-401 Assault with intent to kill
District of Columbia Code Section 22-402 Assault with dangerous weapon
District of Columbia Code Section 22-404(a)(2) Assault with significant bodily injury
District of Columbia Code Section 22-404.01 Aggravated assault
District of Columbia Code Section 22-4502 While armed
District of Columbia Code Section 23-110(a)
District of Columbia Code Section 23-110(g)
District of Columbia Code Section 24-403.01 Sentencing, supervised release
Title 28 United States Code Section 1651(a)
Title 28 United States Code Section 2241(a)
Title 28 United States Code Section 2254(a)
Title 28 United States Code Section 2255(e)
Rules - see Appendix H
Superior Court of the District of Columbia Criminal Procedure Rule 16
Superior Court of the District of Columbia Criminal Procedure Rule 17
Superior Court of the District of Columbia Criminal Procedure Rule 33
District of Columbia Court of Appeals Rule 21
District of Columbia Court of Appeals Rule 41

z

STATEMENT OF THE CASE
Exceptional circumstances in aid of this Court's jurisdiction
The scope of District of Columbia Code Section 23-110(g) has confront a claim of
judicial failure to recuse. Judge Michael Ryan (hereinafter trial court) had preside over
petitioner's pretrial, trial, sentencing, first collateral motion, and has preside now over
petitioner's pending second collateral motion. Trial court had acknowledge at
sentencing, he had reasonable doubt as to guilt, but had thought he could not set aside
the verdict. Trial court had left uncorrected, perjured testimony and altered trial
evidence. District of Columbia Court of Appeals has been silent on all raised issues.
Proceedings material to federal questions presented
Judicial failure to recuse procedural issue had been first raised in 28 U.S.C.
Section 2254(a) petition, case no. 19-00476 to U.S. District Court, District of Hawaii
under an ineffective assistance of trial counsel claim; dismissed September 16,2019 for,
"[wjhere such relief is available it must be sought in the United States District Court for
the District of Columbia." (Appendix E). Case no. 19-16896, Ninth Circuit Court of
Appeals February 28,2020, denial of certificate of appealability, "appellant has not
shown that 'jurists of reason would find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling." (Appendix D).
Petitioner had refile the petition, case no. 20-00271, in order to amplify towards

3

certificate of appealability issue, dismissed June 26,2020 for, "[ijmportantly the D.C.
Circuit has concluded that the Section 23-110 remedy is neither inadequate nor
ineffective to test the legality of a D.C. prisoner's conviction where, as here, he raises a
claim of actual innocence." (Appendix C). Case no. 20-16338 to the Ninth Circuit,
August 18, 2020 denial of certificate of appealability, citing the same standard as the
previous Ninth Circuit denial (Appendix B).
Judicial failure to recuse had subsequent first attempt, in the Superior Court for
the District of Columbia (hereinafter Superior Court), case no. 2011-CF2-012334 entered
October 9,2019, under second D.C. Code Section 23-110(a) motion to vacate, set aside or
correct sentence and judgment (hereinafter second Section 23-110 motion), an ineffective
assistance of trial counsel claim, as amended June 20, 2020 (Appendix A), on grounds
supported by trial counsel errors, and supported by actual innocence and judicial
failure to recuse procedures; and has been pending for over seven months. Trial court
notified petitioner on September 3,2020 (Appendix J), that the trial court had been
reviewing his second Section 23-110 motion and petitioner's two other related pending
motions.
Trial counsel waiver of discoverable exculpatory evidence had first been raised
under petitioner's first Section 23-110(a) motion, as amended filed May 22, 2014
(Appendix I), an ineffective assistance of counsel claim grounded on sufficiency of the
evidence. Waiver of discoverable exculpatory evidence next appeared as an electronic

Lf

mail correspondence (Appendix Q) addendum to 28 U.S.C. Section 2254(a) petition case
no. 5:15-HC-2062-F, in United States District Court for the Eastern District of North
Carolina, Western Division, under an ineffective assistance of appellate counsel claim
grounded on counsel's omission of available claims. December 15,2015 entered
dismissal states, "[petitioner's Section 23-110 motion is still pending before the D.C.
Superior Court." (Appendix F).
Background
Petitioner had been arrested on a July 3,2011 criminal information, charge of
assault with dangerous weapon; indicted April 4, 2012 on assault with intent to kill,
aggravated assault while armed, assault with dangerous weapon, and assault
significant bodily injury charges. Petitioner had receive a plea offer: plead guilty to
assault with dangerous weapon in exchange the government would dismiss all other
pending charges at the time of sentencing, and reserve the right to recommend sentence
to the court. Petitioner had refuse plea offer and pled not guilty on all charges. Trial
held September 9-12, 2013. Government argued motive that petitioner was upset at
perception of relationship with complainant; their case based primarily on complainant
testimony. Petitioner, through court appointed counsel, had argue sufficiency of the
evidence and self defense case. Key dispute, petitioner attacked complainant and viceversa. Not guilty verdict on assault with intent to kill, guilty on the remaining three
charges. Sentenced November 15, 2013, to thirteen total years based on criminal history

5

score of zero, mandatory eight years prison term, no parole or probation, five years
statutory supervised release to follow.
Direct appeal to District of Columbia Court of Appeals (hereinafter Court of
Appeals), case no 13-CF-1359, raising issues that the trial court committed several errors
requiring reversal and merger of counts issue. July 10, 2015 entered Memoranda Order
and Judgment per curiam (Appendix G), affirmed aggravated assault while armed
judgment, ruled trial court committed no reversible error, cited trial counsel's
suppression arguments, and remanded with instruction to merge the remaining two
convictions.
Pro se case no. 15-6247 petition for writ of certiorari to the Supreme Court of the
United States to reverse the Court of Appeals December 1, 2014 dated per curiam order
denying petitioner's motion for leave to withdraw appellate counsel. Petition denied
November 2,2015.
Pro se case no. 13-CF-1359 motion to recall the mandate to the Court of Appeals;
November 5, 2015 dated order denying motion without discussion.
Case no. 2011-CF2-012334, first pro se Section 23-110 motion to Superior Court
under D.C. Code Section 23-110(a); filed December 3,2013, amended February 24, 2014,
second amended and supplemented May 22,2014; March 9,2015 entered order denying
Section 23-110 motion summarily on the merits; both standard of review prongs.

&

Case no. 15-CO-334, appeal order denying first Section 23-110(a) motion to the
Court of Appeals, appointed counsel; September 22, 2016 entered summary affirmance.
Material facts - raised under first Section 23-110 motion
Aggravated assault - serious bodily injury/loss of consciousness
D.C. Code Section 22-404.01, aggravated assault requires serious bodily injury,
and required element of serious bodily injury, loss of consciousness.
The complainant in petitioner's case testified at trial that he lost consciousness
(case no 13-CF-1359 in the Court of Appeals, Michael K. Ciacci v. United States, filed
supplemental record, Trial Transcript, pg. 144), and testified he did not recall telling his
hospital physician treating his injury that he had not lost consciousness (T. Tr., pg. 178).
He testified the petitioner had beaten him repeatedly for twenty minutes (T. Tr., pg.
176). Complainant testified he had deflected blows by petitioner with his arms (T. Tr.,
pg. 141-142). Moreover, complainant testified at grand jury hearing that he had
sustained a concussion (Gr. Tr., pg. 23) (Appendix T); there was no testimony of
concussion at trial; and further testified at grand jury that he had sustained three large
lacerations (Gr. Tr., pg. 22-23) (Appendix T).
Complainant's George Washington University Hospital treating physician
(hereinafter treating physician) of the underlying incident, testified under his standard
medical procedures, complainant experienced no loss of consciousness (T. Tr., pg. 249,
252), and that complainant had been conscious and stable upon examination (T. Tr., pg.

7

247-249). The treating physician testified he observed one laceration overlapped by one
abrasion on complainant's head (T. Tr., pg. 247-249), testified he observed no internal
injuries, no injuries to his arms, legs or extremities (T. Tr., pg. 248-249).
Petitioner testified complainant had been conscious and sitting up when
petitioner had left the scene of the incident (T. Tr., pg. 297-298).
Petitioner's Third District Metropolitan Police Department, District of Columbia
arresting police officer (hereinafter arresting officer), testified (T. Tr., pg. 62, 82-83) that
the complainant had been conscious when he had arrived at the scene of the incident;
the investigative officer had testify complainant had been conscious at the scene when
he arrived (T. Tr., pg. 275). Moreover, the arresting officer testified at suppression
hearing to have observed only one injury to the back of complainant's head (MTS. Tr.,
pg. 56) (Appendix P).
Complainant's (residential) neighbor testified complainant had been conscious
when he knocked on her door asking her to call the police (T. Tr., pg. 207-208), and her
testimony, that she heard one loud voice from her apartment, indicated the incident had
last ten minutes (T. Tr., pg. 208); the neighbor had not constitute an eye witness of the
incident. Court of Appeals Memoranda Order and Judgment ruled the incident had last
ten minutes (MOJ, pg. 2) (Appendix G), and made no reference to complainant or his
treating physician's testimonies. Trial court ruled at motion for judgment of acquittal,
difference between ten and twenty minutes had been "negligible" (T. Tr., pg. 372-373).

e

Thus, trial court held, a voice witness of the incident established an inference that loss of
consciousness and serious bodily injury had occur, since there had been no difference
between 10 and 20 minutes, corroborating complainant's testimony, and amounting to
legal sufficiency under acquittal motion standard.
The government inferred at closing arguments that complainant had not lost
consciousness (T. Tr., pg. 178-179) and that he was conscious when petitioner left the
scene (T. Tr., pg. 404). The government in their direct appellee brief conceded that
complainant testimony he lost consciousness had been impeached by his treating
physician's testimony (Appellee Brief, pg. 6, footnote 5). The government had elicit
testimony from the arresting officer showing the officer's police report had documented
that the officer observed only one injury to the head and no other injuries (T. Tr. pg. 98)
Trial counsel at closing arguments, inferred complainant's testimony to no loss of
consciousness had been inconsistent (T. Tr., pg. 411-413,423). Trial counsel had elicit
testimony from the arresting officer showing that the officer's police report had
documented that the officer observed only one injury to the head and no other injuries
(T. Tr., pg. 84-86).
Aggravated assault - serious bodily injury/extreme physical pain
D.C. Code Section 22-404.01, aggravated assault requires serious bodily injury,
and required element of serious bodily injury, extreme physical pain.

1

Complainant testified he needed a cane for leg pain (T. Tr., pg. 141-142), that he
had experienced no pain three to four days after the incident (T. Tr., pg. 161-162), and
that he had been immediately mobile after the incident had occur (T. Tr., pg. 145-147).
His treating physician testified no cane or special care item were administered or
necessary (T. Tr., pg. 265). The government at closing arguments made no inference
complainant sustained extreme physical pain. Trial counsel at closing arguments made
several inferences that complainant's testimony, regarding extreme physical pain, had
been inconsistent (T. Tr., pg. 407,409-410,413,425).
While armed - Dangerous weapon
The indictment included D.C. Code Section 22-4502, while armed enhancement
°f aggravated assault charge. D.C. Code Section 22-402, assault with dangerous
weapon requires a dangerous weapon.
Trial counsel in her opening arguments (T. Tr., pg. 55) stipulated petitioner had
been armed and used a weapon, the government alleged to be dangerous, in self
defense. Counsel presented two differing defenses at opening arguments; sufficiency of
the evidence defense also presented. The government nor any police officer, including
crime scene officer, discovered nor produced any alleged weapon under the
government's physical evidence; and no alleged weapon had been physically presented
to the jury at trial (Appendix L, S). Trial court had ordered a DNA test of all physical
evidence seven months after the indictment, no alleged weapon tested.

(0

Assault with significant bodily injury
D.C. Code Section 22-404(a)(2), assault significant bodily injury, requires
significant bodily injury, defined as including necessary hospitalization and bruising.
The treating physician testified he observed no bruising (T. Tr., pg. 268), testified
that the duration of complainant's hospitalization was under twenty-four hours (T. Tr.,
pg. 253), and that the hospitalization had been classified as lowest trauma white and not
life threatening (T. Tr., pg. 247, 257). The physician testified surgery had not been
performed or necessary (T. Tr., pg. 265). The complainant testified he had sustained
bruising (T. Tr., pg. 160-161). The arresting officer corroborated, for the first time, he
observed bruises at the scene of the incident before the complainant had depart to the
hospital (T. Tr., pg. 83-86). During cross-examination of the treating physician, the
government, in response to the treating physician's direct testimony that he had
observed no bruising, had infer during his lines of questioning, that bruising from
trauma could have appeared subsequent the medical examination, and the treating
physician responded the possibility had exist (T. Tr., pg. 267); but in doing so, the
government also inferred the arresting officer could not have observed bruising before
the medical examination.
Self defense
Petitioner testified he had respond reasonably to complainant's aggressive
manner in self defense (T. Tr., pg. 295-296,299-300, 314, 318). Complainant had testify

U

that he had been taller, and roughly a hundred pounds heavier (T. Tr., pg. 177). Trial
court had grant the petitioner, several self defense jury instructions (T. Tr., pg. 355-356).
Petitioner had testify, subsequent the incident, he walked to the police station, filed an
assault report, and voluntarily waited in the lobby (T. Tr., pg. 298); defense written
suppression motion had argue custodial interrogation in the police station lobby
(Appendix R). Trial counsel had infer at closing arguments that petitioner reported to
police he had defend himself against an attempted assault (T. Tr., 420). The government
had not dispute petitioner's actions subsequent the incident. During early pretrial
discussion, counsel advised petitioner self defense had not been appropriate defense for
him under District of Columbia Code., and months later, both began practicing possible
self defense testimony lines of questioning at her office.
Stipulation
The arresting officer had infer at suppression hearing, that the clothes and shoes
were taken by a fourth police officer, subsequent the custodial arrest and the right to
counsel invocation (MTS Tr., pg. 75) (Appendix P).
Trial counsel stipulated to government trial exhibits 2-6,28-32; stipulated to black
markings on petitioner's jeans that were drawn in by the government's DNA expert,
and stipulated to conclusions produced by the government's DNA test expert (T. Tr., pg.
6-7, 28-29); and the stipulations were read in open court to be indisputable (T. Tr., pg.
100-103).

\%

Neither the government nor defense DNA tests found any blood on petitioner's
long-sleeve shirt shown in government trial exhibit 31. Trial counsel moved the trial
court to order DNA testing be done. The DNA tests by both parties had occur
subsequent the suppression hearing completion. The government's DNA test stated
that specks of blood were found on petitioner's jeans and one shoe, and concluded the
complainant's DNA probably match blood found on the jeans and one shoe. The
defense DNA test stated that the presence of blood had been found, and also stated that
complainant's DNA had not been involved in the test (Appendix O). Counsel had not
object to admission of exhibit 31. Counsel had not elicit testimony from petitioner
explaining he had taken off his clothes he had been wearing during the incident and
had not been wearing shoes in the apartment either, and then changed into new
clothing and pair of shoes, which had hours later, been taken by the police officer.
The arresting officer testified to observing blood on petitioner's jeans on the day
of the incident, and noted that his recollection of blood had been due to remembering
he also observed the black markings next to the blood on the day of the incident, when
shown the jeans in government trial exhibit 28-A, (T. Tr., pg. 78). An ex parte bench
conference ensued (T. Tr., pg. 79-80), not explicitly discussing the black markings had
been drawn on the jeans years later by the government's DNA expert, during test
analysis for blood, and that fact of the expert drawing the black markings on the jeans
was explicitly stated in the defense stipulation to the governments DNA expert

13

conclusions (Appendix M). The stipulation had subsequently followed the arresting
officer's testimony to the black markings, and the arresting officer had later been
recalled (T. Tr., pg. 191) to testify further as well. The trial record, regarding the
arresting officer testimony to observing blood and black markings on the day of the
incident, had never been corrected to the jury by the trial court, the government nor
trial counsel.
The government alleged a couple of spots on the wall of complainant's
apartment, had inferred blood splatter, during authentication by the arresting officer of
government trial exhibits 9-12 (T. Tr., pg. 64). Counsel had not object to color
photographs inferring blood splatter on complainant's wall. The government made
inferences at closing arguments to blood splatter establishing further inferences toward
elements of the charges under the indictment (T. Tr., pg. 398-399,403). Complainant's
grand jury testimony included his description of blood splatter on his apartment wall
while shown color photographs by the government (Gr. Tr., pg. 25-27) (Appendix T).
The treating physician had testify the complainant had lost a moderate amount
of blood (T. Tr., pg. 261).
Expert witness testimony limitation
During preliminary questions (T. Tr., pg. 10-11) counsel had notify to trial court
the treating physician would be the defense' witness, but "not for his expert testimony",
and trial counsel would limit his testimony to "what treatment he provided to

l*f

[complainant] and the condition of [complainant] when [complainant] entered the
hospital".
Counsel had elicit treating physician's medical qualifications on direct
examination (T. Tr., pg. 246). However, treating physician testimony to blood alcohol
level of the complainant lines of questioning were halted by the government; sustained
objections (T. Tr., pg. 252-253). The medical records show the complainant had been
legally intoxicated; medical procedure defining intoxication show complainant had
been over twice the level of intoxication (Appendix U). Counsel had not attempt to
elicit from the treating physician whether he had observed, during his medical
examination, the depictions in government trial exhibits 20-23, the government alleged
were of the complainant sustained during the underlying incident. Complainant's face
is not shown in any of the four exhibits, and there are no dates or time indicated on the
color photographs.
The government on cross examination of the treating physician had however,
elicit expert opinion regarding, the difference between a laceration and abrasion (T. Tr.,
pg. 258), had elicit expert opinion regarding the different layers of skin on a person's
scalp (T. Tr., pg. 258-259), had elicit the definition of the force of trauma (T. Tr., pg. 259),
and the definition of evulsion (T. Tr., pg. 260). Counsel had object unsuccessfully to the
governments' lines of questioning that had elicit medical expert opinion from the
treating physician.

\5

Second motion for judgement of acquittal
Trial motion for acquittal on all counts had been raised after the defense
completed its case (T. Tr. 370-383), and discussion centered on the legal sufficiency
pertaining to loss of consciousness; trial court stated, the "light most favorable to the
government" standard of review would affirm his decision to deny acquittal on
aggravated assault while armed count; and trial court noted that complainants
neighbor's testimony had been the determinative factor. The trial court had omit
discussion regarding extreme physical pain, a required element under aggravated
assault statute, and trial counsel had not raised the element based on legal sufficiency
grounds.
Trial court's comments during sentencing hearing show he had decided to send
the case to the jury despite his reservations. He stated, "I thought the bean count could
go either way. I'm not sure whether I could have found evidence beyond a reasonable
doubt on that, but I didn't have to make that decision because it was a jury trial and not
a bench trial" (Sn. Tr., pg. 27) (Appendix K).
Discoverable exculpatory evidence
An electronic mail (email) correspondence between trial counsel and the
government, dated two days before the suppression hearing had occur, states that he
had to give notice that the government had been aware of the existence of exculpatory
evidence, a prior hospitalization that the complainant had sustained, but the medical

\b

records of that prior hospitalization had not been in the government's possession
(Appendix Q).
The government also inferred in the email, that he had more color photographs
to produce under discovery and would need to know how many color photographs
trial counsel had already received.
A motion to subpoena discoverable exculpatory evidence nor motion for new
trial has never been attempted by any of the court appointed counsels.
Color photographs
Complainant testified that color photographs he had given to the government,
showing serious bodily injuries he alleged occurred, were produced on a cellphone by
his friend at complainant's apartment immediately while being discharged from the
hospital (T. Tr., pg. 185).
Trial court had advised counsels in pretrial hearings, that these color
photographs produced by the complainant had been probative and admissible,
regardless if complainant's friend had left the city permanently, and the cellphone and
original images had both been destroyed, however, trial counsel had never object to its
admission and complainant had need only testify to the representations as authentic.
The arresting officer testified the Third District Metropolitan Police Department,
District of Columbia crime scene police officer (hereinafter crime scene officer), had
taken color photographs (government trial exhibit 16-19) of the complainant at the

IT

hospital (T. Tr., pg. 157). Crime scene officer report states she left the hospital at 230 am
on July 3rd, 2011 (Appendix V) and could not have produced several color photographs
in discovery, four (government trial exhibits) of which were allegedly produced more
than seven hours subsequent administer of sutures (Appendix U). Crime scene officer
had not testify.
There are two sets, produced by different sources, of color photographs. Color
photographs authenticated at trial by the complainant had been the only documentary
or demonstrative evidence that show injuries beyond one small laceration overlapping
one small abrasion, and no other injuries; complainant's medical records and the entire
police report only corroborate crime scene officer produced set of photographs.
Copies of two color photographs, disclosed under discovery, and one
government trial exhibit, are addendum to petitioner's February 5,2015 entered
correspondence filing in the Superior Court; and copies of color photographs are also
addendum to petitioner's writ of mandamus under case no. 14-AO-30, entered October
3,2014, in the Court of Appeals. The two color photographs provided the defense
under discovery, show and indicate the complainant wearing two different neck braces;
the three color photographs together, side by side, indicate and show the government
trial exhibits had been an alteration of their discovery evidence.
The government had duplicated as trial exhibits, original color photographs
submitted to the defense under discovery. The duplication however, had altered the

18

original, depicting and presenting facts that possibly do not exist. The image had been
duplicated with a color printing format that altered white pixels into red pixels.
Complainant's Caucasian white skin complexion had been depicted as dark red skin
complexion. The dramatic difference can be visualized when the trial exhibits are
placed side by side with the corresponding color photographs in discovery; and also by
examining the purple hue completely covering each image and the purple shading
around object, on all the government trial exhibits, especially where a white color image
should have been depicted - the walls are a flat white paint color and not lavender, and
hospital lighting does not produce blue shadows reflected on white surfaces (Appendix
N). Trial counsel had not at any point explicitly object to the alteration, and no
indication in the record whether any officer of the court had notice the alteration.
Early discovery communication dated June 27,2012 (Appendix S), stated the
government had produced twenty-three color photographs. Nineteen color
photographs were presented as exhibits at trial (Appendix L). The government's
discovery produced to the defense a total of fifty-three color photographs, not including
mug-shots. At July 11,2011 grand jury hearing testimony, the government had shown
complainant two grand jury exhibits; exhibit no. 1, had nine pages of color
photographs, and exhibit no. 2, had twenty-one pages of color photographs; and
complainant testified his friend produced both exhibits (Gr. Tr., pg. 23-24) (Appendix T).

Trial counsel had raised concerns during preliminary questions, to the
government presenting color photographs at opening arguments, (T. Tr., pg. 8-9). Trial
court had respond that authentication would not be necessary if the complainant
testified and vouched for their representations. Counsel had not object, she only raised
concern regarding the photographs being presented at opening arguments, and raised
nothing further on the matter of color photographs. At no point in the entire
proceeding, pretrial and at trial, had counsel raise an objection to any of the color
photographs in discovery. Counsel had only begun to investigate into the color
photographs subsequent the suppression hearing being held.
Appellate counsel would argue chain of custody issue related to trial counsel's
concern in the appellant brief, however, since trial counsel had completely waive the
issue, appellate counsel's attempt had been rejected on its face, under the Court's
precedent against taking an opposite position on appeal from that taken at trial (MOJ,
pg. 5-6) (Appendix G).
Direct appeal
An unopposed motion for leave to withdraw appellate counsel stated that the
petitioner had "lost all trust and confidence" and had been "unable to cooperate with
him" and appellate counsel had not comment on the merits of the appeal. Attorneyclient communication subsequent Court of Appeals affirmance of the sentence, stated

w

that appellate counsel advised petitioner, he had "no valid basis" to file Petition for Writ
of Certiorari to the Supreme Court of the United States.
Admission of defense trial exhibits
Trial counsel had not, at any point show the jury, the police report (Appendix W)
showing one small injury and no other injuries, nor had trial counsel read to the jury the
complainant's medical records (Appendix U), which document the actual injury to be
one small injury and no other injuries; no large posters to display diagrams or the like.
Subsequent completing defense case in chief, counsel attempted admission of all
eight defense trial exhibits together "used through the course of the trial" (T. Tr., pg.
350). The government had object to four exhibits (Appendix L), discussion ensued.
Counsel argued a record of medical discharge instructions (Appendix U)
presented during examination of the treating physician constituted hearsay under
business records exception (T. Tr., pg. 352). Counsel reminded trial court "[she] did
neglect to ask the doctor whether or not the records were taken in the ordinary course of
business" although he testified about the records (T. Tr., pg. 352). Counsel had not
refreshed the treating physician's recollection of the medical record, only marked the
record for identification, and had the treating physician read the discharge instruction
in open court (T. Tr., pg. 254-257).
The Trial court ruled inadmissible (T. Tr., pg. 350-360): two exhibits counsel had
attempted to admit in order to show the government's motive and theory of their case

r\

had been false (government's theory had been plainly stated in defense exhibits the
court had admit unopposed into evidence); trial court had rule inadmissible, an exhibit
of a statement (MTS Tr., pg. 56) (Appendix P) the arresting police officer made under his
motion to suppress hearing testimony, and inadmissible an exhibit of a statement the
investigative police officer wrote in his case summary portion of the police report; trial
court had rule that counsel had not complete refreshment of the statement to the
complainant and the government could not "rehabilitate the impeachment" on cross
examination (T. Tr., pg. 191) of the arresting officer recalled by counsel as rebuttal
witness; and regarding the investigative officer's statement, trial court had rule that the
officer did not record the statement in police notes (T. Tr., pg. 271), counsel had not elicit
suppression testimony of the statement she marked for identification (MTS Tr., pg. 81)
(Appendix P) in the case summary report; the investigative officer had declined
counsel's attempt (T. Tr., pg. 276) to refresh his memory of the statement at trial. The
government at suppression hearing had elicit the contents of the investigative officer's
portion of the police report (MTS. Tr., pg. 86-87) (Appendix P).
Trial court had not admit into evidence, defense exhibit 1, the arresting officer's
supplemental portion of the police report (T. Tr., pg. 390) (Appendix W), which shows
diagrams depicting one injury to the head; denial of admission without discussion.
Counsel marked the exhibit for identification (T. Tr., pg. 84) to impeach the arresting
officer's testimony (T. Tr., pg. 63) that the complainant "had several contusions and cuts

2^

along his head and body". At motion to suppress hearing, counsel had marked the
supplemental police report for identification only, she had not elicit from the officer his
contents of the police report, but confirmed he had authored those portions (MTS Tr.,
pg. 63). Counsel redacted and provided trial court, the supplemental police report to
include only diagrams representing testimony she had elicit earlier at trial (T. Tr., pg.
457-458). The government had object (T. Tr., pg. 460) arguing if counsel had attempted
to admit at the time of this introduction he would have object since counsel had not
conformed with hearsay exceptions. Counsel had respond (T. Tr., pg. 460) she "didn't
actually impeach [arresting officer] with his notes at all". Trial court ruled the
impeachment of the officer using his portion of the police report was "unsworn" and
could be admitted if with the instruction: "not for the truth of the matter" (T. Tr., pg.
461). A redacted supplemental police report, amended defense trial exhibit 1, had been
sent with instructions to the jury after deliberation had begun (T. Tr., pg. 477).

22

REASONS FOR GRANTING THE WRIT
Petitioner is seeking a Supreme Court of the United States mandamus order
directing Michael Ryan, Associate Judge, answer his pending motions, mandamus order
directing Superior Court of the District of Columbia reassign review of his pending
motions, and or rule whether petitioner's second D.C. Code Section 23-110(a) motion to
vacate, set aside, or correct sentence and judgment is an inadequate or ineffective
remedy to test the legality of his sentence. The three questions presented constitute
exceptional circumstances squarely adjudicated by this Court in aid of its jurisdiction.
Standard of review - inadequate or ineffective remedy
Petitioner raises a claim his second D.C. Code Section 23-110(a) motion to vacate,
set aside or correct sentence and judgment (hereinafter second Section 23-110 motion) in
Superior Court of the District of Columbia (hereinafter Superior Court) is an inadequate
remedy based on failure of the trial judge (hereinafter trial court) to recuse himself from
reviewing petitioner's collateral motions.
First a discussion regarding whether the remedy is inadequate and second,
whether trial court failed to recuse.
Raising claims that at remedy is inadequate or ineffective to test the legality of
the sentence have been subject to an unobstructed procedural shot test, see In re
Davenport, 147 F.3d 605,611 (7th Cir. 1998).
The inquiry under an unobstructed procedural shot test discerns adequacy and

2-4

to determine adequacy in this context requires looking back into the essential function
of habeas corpus and whether that essential function is impaired by the limitations on
the use of Section 23-110 motion. Id. Determining whether a fundamental defect has
occurred is a condition under the test. Ibid. Several Circuit Court of Appeals
subsequently adopted In re Davenport qualifications into various standards of review.
To determine whether there has been an obstructed procedural shot at presenting
the claim courts consider "(1) whether the legal basis for petitioner's claim did not arise
until after he had exhausted his direct appeal and first [Section 23-110] motion; and (2)
whether the law changed in any way relevant to petitioner's claim after that first
[Section 23-110] motion, e.g., Abdullah v. Hedrick, 392 F.3d 957 (8th Cir. 2004).
The judicial failure to recuse issue had first been appropriately raised by
petitioner, pro se,under his second Section 23-110 motion. A mandamus petition had
not been attempted during the pendency of petitioner's first Section 23-110(a) motion.
District of Columbia Court of Appeals (hereinafter Court of Appeals) appointed
appellate counsel whom had omit judicial failure to recuse. The second Section 23-110
motion is an ineffective assistance of counsel claim on the grounds petitioner's Sixth
Amendment to the United States Constitutional right to effective assistance of counsel
had been violated, supported by trial counsel errors, and Due Process Clause of the
Fourteenth Amendment to the United States Constitutional violation, supported by
actual innocence and judicial failure to recuse procedures. None of the retroactivity

OS

conditions under In re Davenport qualifications or adopted standards by other Circuits
apply to petitioner's motion. An unobstructed procedural argument under the
standard can be made.
Furthermore, Trial court shall review Section 23-110(a) motions unless the motion
is held to be inadequate under Section 23-110(g). Petitioner argues that his Section
23-110(a) motion is an inadequate remedy, once trial court failed to recuse himself in
accordance with standards that constitute judicial recusal, see post. Petitioner's trial
court judge presided over his pretrial, trial, sentence, first habeas collateral motion, and
now second habeas collateral motion.
When trial court has made critical decisions at pretrial or trial proceedings, trial
court should not subsequently review his own critical decisions. Otherwise, the remedy
for Superior Court sentences to seek relief under an ineffective assistance of counsel
claim could not be a reasonable procedure for correcting fundamental legal errors in the
criminal process.
D.C. Code Section 23-110(g) requires that the remedy be inadequate before
petitioner can seek relief in another court; three attempts in two different federal District
Courts under 28 U.S.C. Section 2254(a) have been dismissed for want of jurisdiction and
exhaustion of state remedies.
Scope - inadequate or ineffective remedy

'Uo

Section 23-110(g) adopts 28 U.S.C. Section 2255(e) language and scope, see Swain
v. Pressley, 430 U.S. 372,381,384 (1977).
"Inadequate or ineffective" is broad language under Section 2255(e), and
Congress did not intend 2255(e) to be any different than the scope of writ of habeas
corpus under the Judiciary Act of 1789. United States v. Hayman, 342 U.S. 205 (1952)
(Section 2255(e) remedy "shall remain open to afford the necessary hearing"). The
scope of habeas corpus under "Section 2241 does not limit the boundaries of custody
nor limit situations habeas corpus could be used". Jones v. Cunningham, 371 U.S., at 238
(1963).
j

Circuits' opinions in the Court of Appeals, are not dear on the issue of whether
the scope of 2255(e) is open to judicial failure to recuse daims. The Seventh Circuit, in
Brown v. Caraway, 719 F.3d 583,597 (7th Cir. 2013), thinks the savings dause does not
limit the scope of 2255(e); and the Eleventh Circuit in Wofford v. Scott, 177 E3d 1236 (11th
Cir. 1999), held "savings clause intended to apply in some circumstances...other than
practical ones assodated with the location of the court.". That same Eleventh Circuit in
Gilbert v. United States, 640 F.3d 1293 (en banc) denied on finality of judgment reasons.
Consider, "[i]n appropriate cases the prindples of comity and finality that inform the
concepts of cause and prejudice must yield to the imperative of correcting a
fundamentally unjust incarceration.". Schlup v. Delo, 513 U.S., at 320-321, quoting
Murray v. Carrier, 477 U.S., at 495 (internal quotations omitted). The Fifth Circuit in In re

2-7

Bradford, 660 F.3d 226,230, determined the scope of 2255(e) should only apply to cases
where a nonexistent crime had convict. A fundamental defect is the underlying
condition that triggers the scope's gateway, even in circumstances when a guilty verdict
holds up and is not in question, so long the petition is unobstructed procedurally.
The question whether petitioner's motion may pass through under Section
23-110(g) requires clarity in aid of the this Court's jurisdiction.
Tudidal failure to recuse
This Court held judicial recusal is required when tire "likelihood of bias on the
part of the judge is too high to be unconstitutionally tolerable". Caperton v. A.T. Massey
Coal Co., 556 U.S. 868 (internal quotations omitted). "The objective inquiry is not
whether the judge is actually biased but whether the average judge in his position is
likely to be neutral or there is an unconstitutional potential bias.". Id., citing Mayberry v.
Pennsylvania, 400 U.S. 455,466 (internal quotations omitted).
Material facts - judicial failure f-n rmisp
At pretrial hearing, trial court advised both parties that the government's color
photographs, produced by the complainant, were probative and admissible. The source
of the color photographs had not been available for testimony and the original images,
including the cellphone, were no longer available. Trial court held that the government
could present the complainant to vouch for its authenticity. Trial counsel had not argue
the color photographs produced by the complainant: were inconsistent with color

n

photographs produced by the crime scene police officer, had not argue were
inconsistent with the contents of the complainants medical records of the underlying
incident, and had not argue were inconsistent with the contents of petitioner's arresting
officer's police report. Trial counsel only raised authenticity at preliminary questions
regarding the government's specific use of color photographs during opening
arguments. Trial counsel had not object to color photographs and otherwise had waive
the admissibility of evidence that had represent facts that had not exist anywhere else in
the government's evidence in discovery.
After the underlying incident had occur, petitioner immediately gathered his
belongings, changed into different clothing items, walked to the police station, reported
a self defense incident, and waited in the lobby where he would later be arrested. Trial
counsel had been aware of petitioners' actions following the incident. Trial counsel's
entire suppression motion centered on clothing items that she knew to be improperly
alleged evidence. Trial counsel had instead argue a variance to the stop and frisk police
procedure establishes grounds to suppress those clothing items. The Court of Appeals
had reason that appellate counsel's issues raised could not completely disassociate itself
from trial counsel's suppression argument. Trial counsel's misplaced effort to suppress
the clothing items, had consequently omit a reasonable effort to address the remaining
evidence the government would present at trial.

v\

Moreover, trial counsel had completely omit raising discoverable exculpatory
evidence provided her two days prior to the suppression hearing. Discoverable
exculpatory evidence had been provided under Superior Court Rules of Criminal
Procedure, Rule 16, requiring the government notify counsel of its existence, see e.g
United States v. Agurs, 427 U.S. 97 (1976). Complainant's medical records clearly
document a statement that show complainant had sustained a previous hospitalization
in 2009 describing serious injuries involving the surgical insertion of metal plates. The
government thought the discoverable evidence could not only show the complainant
had presented false statements to the police and the government, but also would
undermine the outcome of the trial. Trial counsel had instead, ignored a rule required
by this Court, a rule promulgated to protect the presumption of a fair trial. Trial counsel
had consequently omit an effort to act on discoverable exculpatory evidence, that she
should have presumed would undermine the outcome. The purpose of the rule should
not only apply to the government, see Johnson v. Zerbst, 304 U.S 458 (given the
circumstances trial court has a constitutional duty).
At the start of trial, counsel had stipulate to the petitioner holding an alleged
weapon and using it in self defense. Trial counsel had chosen to waive the
government's burden to prove all facts beyond a reasonable doubt in order to argue self
defense case. The alleged weapon not in physical evidence or produced at trial, had
been required be proven under the indictment for assault with dangerous weapon and

30

an enhancement charge to aggravated assault. Counsel should not presume petitioner
acquiesced by reasoning the wide latitude afforded counsel to argue strategic choices,
could excuse her burden shifting away from the government without first discussing
her strategy with petitioner, see D.H. Overmyer Co., Inc., of Ohio et al. v. Frick Co., 405
U.S., at 186 (1972), quoting Ohio Bell Tel. Co. v. Public Utilities Comm'n, 301 U.S. 292 (not
all waivers by counsel can presume petitioner's consent); see also, Mullaney v. Wilbur,
421 U.S. 684, 703-704 (in accordance with In re Winship, 397 U.S. 358 (1978), the
government has the burden to prove all facts beyond a reasonable doubt).
At trial, counsel had omit crime scene police officer testimony and had waive a
reasonable defense to all color photographs; and had also omit defense DNA expert
testimony and had instead stipulate to all blood related evidence. The government had
fail chain of custody procedures and the defense DNA test had not confirm the
government's DNA test conclusions. Both omissions of testimony and subsequent
waiver of issues had been due to negligence and lack of preparing witnesses for trial.
see Draughon v. Dretke, 427 F.3d 286,296 (5th Cir. 2005) (Circuit Court upheld District
Court ruling that an omission of effort to obtain expert forensic examination amounts to
ineffective assistance).
The government had alter, whether intentional or not, all color photographs and
presented facts to the jury that had not exist in the government's evidence. The

31

alteration had not been noticed nor corrected, see Pyle v. Kansas, 317 U.S. 213; Mooney v.
Holohan, 294 U.S. 103.
Trial court had allow the arresting officer's perjured testimony to go uncorrected
before the jury after realizing the testimony to be false, see Alcorta v. Texas, 355 U.S. 28;
see also Mooney v. Holohan, 294 U.S. 103.
Trial counsel had elicit testimony from the treating physician, who authorized
the facts stated in the medical records, that had impeach the government's key witness
testimony, the complainant, and the government's only corroborating eye witness
testimony, the arresting officer.
However, trial counsel had attempt to admit into the trial record, all eight
defense trial exhibits, used through the course of the trial, subsequent completing the
defense' case. Trial counsel had believe her pretrial actions and omissions could justify
that strategy. During the attempt, trial counsel had fail to execute the rules of evidence
trial procedure. Counsel had openly acknowledge her negligence to the trial court.
Trial court had rule that five of eight exhibits were inadmissible to the trial record under
several execution errors. Moreover, the arresting officer's police report, which
corroborates the petitioner's testimony, had been denied admission after the jury had
already weighed the favorable evidence. Compounding her error trial counsel had
subsequently redact the police report. The trial court had later admit the police report

37-

with the instruction to the jury: not for the truth of the matter. Cf. Strickland v.
Washington, 466 U.S. 668 (1984).
Trial counsel had subsequently move for judgment of acquittal on all counts.
Trial court had reason the "light most favorable to the government" standard of review
would affirm his decision to send the case to the jury, notwithstanding the mountain of
testimony establishing inferences that show the government had not proven legal
sufficiency on all counts.
One small laceration overlapping one small abrasion, centimeters in size, and no
other injuries, all documented in complainant's medical records, observed by his
treating physician to be injuries of lowest trauma and in his medical expert opinion,
hospitalization had not been necessary, altogether corroborated by testimony to the
arresting officer's un-redacted police report, had nevertheless convict petitioner of
aggravated assault while armed, assault with dangerous weapon, and assault with
significant bodily injury.
The trial court had allow the trial mode to test whether the jury could discern the
facts as to guilt under a circumstance where true and false evidence had been presented.
At sentencing hearing, trial court would make a statement in open court that he
had reasonable doubt as to guilt, but since the proceeding had been by jury and not a
bench trial, he had not need to make that decision.

33

Trial court's statement at sentencing had also infer that he could omit a decision
that he is clearly empowered to make after the verdict. His trial court duty to send the
case to the jury should not be confused with the trial court duty to set aside the verdict.
The color photographs weighed heavily on the jury. Trial counsel had forced
upon herself strategic choices, she had made at trial and subsequently had fail to
')

execute those strategies. The trial court's statement at sentencing had infer that he
could allow an omission to investigate color photographs and discoverable exculpatory
evidence based on trial counsel's wide latitude for presenting the defense.
Trial court had preside over a case, where trial counsel's acts and omissions had
resolve the government's lack of legal sufficiency, and where the government's acts and
omissions had resolve trial counsel's strategic choices. The trial court should be able to
identify the prejudice to the jury caused by those actions and omissions, see Chambers v.
Mississippi, 410 U.S., at 302 (under facts and circumstances of the case the rulings of the
trial court deprived petitioner of a fair trial).
Whether trial court's functionary role to administer all pretrial proceedings,
should not be any different whether under a bench trial or under a jury trial, is a
question in aid of this Court's jurisdiction.
Whether trial court thought he could neither intervene nor acquit is a trial court
determination that should be scrutinized. Whether trial court's decision not to acquit
after the verdict should also be scrutinized.

Trial court has a duty to intervene, see Johnson v. Zerbst, 304 U.S., at 465.
Trial court7s decisions' presented circumstances at trial that cannot be ignored.
see Glasser v. United States, 315 U.S. 60.
Trial court decisions not to have intervene had been critical decisions. Trial court
decision not to have correct the trial record had been a critical decision. Trial court
decision not have set aside the verdict had been a critical decision. These critical
decisions are wedded to the trial court and thus, the Caperton Court required he recuse
himself from subsequent participation. Trial court's subsequent participation in
petitioner's collateral motions had violate the Due Process Clause of the Fourteenth
Amendment to the United States Constitution.
This Court should rule petitioner's pending remedy under Section 23-110(g), is
inadequate to test the legality of his sentence.
Exhaustion of state remedies
Petitioner's first Section 23-110(a) motion had present all material facts and had
not been a mixed petition, since Superior Court had retain collateral review, see Rose v.
Lundy, 455 U.S. 509.
The Court of Appeals appear to have had determine trial court decisions had not
been critical by their silence on the issue. The Court of Appeals had two bites at judicial
failure to recuse under petitioner's appeal to his Superior Court order denying his first
Section 23-110(a) motion and his subsequent motion to recall the mandate.

55-

Direct appeal counsel should have had to raise available claims. Appellate brief
had omit that the trial court had omit action on trial counsel's omission of discoverable
exculpatory evidence, the brief had omit that the trial court had omit action when
perjured testimony had gone uncorrected and when the government had alter trial
evidence, and the brief had omit trial court's decision to have not set aside the verdict.
Petitioner had express his dissatisfaction.
Appellate counsel subsequently filed motion for leave to withdraw citing
"irreconcilable differences" before the government filed their brief in opposition. Court
of Appeals denied the motion and ordered petitioner "cooperate" with appellate
counsel. Petitioner's pro se Petition for Writ of Certiorari to this Court to the order
denying motion for leave to withdraw appellate counsel had been denied. Appellate
counsel had advised petitioner not to appeal the affirmance of his Superior Court
sentence to this Court. Petitioner agreed omitted claims had been waived and the
affirmance had not been ripe for an appeal.
Court of Appeals had three bites on the issue that trial counsel had omit
discoverable exculpatory evidence, that the trial record left uncorrected when the
arresting officer had commit perjury and when the government had alter trial evidence,
and on the issue that whether the trial court had omit his duty by not addressing these
issues. Consequently, petitioner had been accorded recourse under stringent recall of
the mandate procedure.

<bk>

Moreover, petitioner's April 24,2015, filed, as amended filed October 13,2015, 28
U.S.C. Section 2254(a) in the United States District Court for the Eastern District of
North Carolina, Western Division, had been grounded on appellate counsel's refusal to
raise available claims. The dismissal order had misconstrue the pendency of the
judgment to the first Section 23-110 motion, which had been entered March 9, 2015. The
direct appeal had had been pending until July 10,2015.
United States District Court, District of Hawaii first dismissal order had
misapprehend petitioner's immediate custody; and the second dismissal order had
misconstrue procedural actual innocence to be petitioner's attempt at passing through
the savings clause, and had omit judicial failure to recuse entirely from their discussion.
United States District Court, District of Hawaii, had consequently tie petitioner's
claims' to stringent certificate of appealability standard.
Furthermore, petitioner had attempt to address several issues not raised at trial
but had been part of his case file forwarded him by trial counsel subsequent her
withdrawal. Subsequent trial at October 23,2013 hearing, petitioner had demand and
had been granted hybrid self representation, co-counsel in order to communicate
directly with trial court during sentencing. Trial court had deny additional evidence at
sentencing.
Petitioner's case file had an email communication regarding discoverable
exculpatory evidence and several pages of complainant's medical records and discovery

37

documents, none of which had been part of the trial record. On several occasions,
petitioner had attempt to address and include these material documents in the trial
record. Petitioner had file pro se, February 6,2014, entered Superior Coin! motions to
compel hearing on motion to vacate sentence and motion to expand the record, August
28,2014, motion to compel evidentiary hearing, and February 5,2015, entered motion to
schedule evidentiary hearing to expand trial record; and correspondences to trial court
entered, December 11,2013, May 9, 2014, May 14, 2014, September 19,2014, January 27,
2015, March 27,2015, and April 14,2015.
Petitioner's had entertain a pro se subpoena duces tecum request for medical
records of the complainant's previous hospitalization, discoverable exculpatory
evidence referenced in the email correspondence between trial counsel and the
government.
Petitioner also had raise his concerns regarding both trial court and trial counsel
handling of his trial in January 29,2015, entered correspondence to the Court of
Appeals, and had send a correspondence to the Supreme Court clerk briefly raising the
same concerns.
Petitioner's pro se motions to expand the record and to compel hearings, had not
been explicitly construed in the docket as a motion for new trial. May 7,2014, entered
Court of Appeals order, had deny petition for rehearing; the order is only entered in the
Superior Court docket. Also, two subsequent pro se motions had not been addressed.

2>t

Whether petitioner's pending motion for a new trial is his first Superior Court
Rule 33 motion is not dear.
Petitioner had file motions to the Court of Appeals construed as Writ of
Mandamus; case no. 13-OA-0058 entered December 18,2013, and order denying
petition for writ of mandamus/prohibition entered December 20,2013; and case no 14OA-0030 entered October 3,2014, and order denying petition for writ of mandamus /
prohibition entered November 25,2014. The motions had include color photographs
showing trial counsel waiver of government evidence and prosecutorial misconduct.
This Court should rule the petitioner has exhausted his state remedies.

Conclusion

The petition for Extraordinary Writ of Mandamus should be granted.

Respectfully submitted,

March3( ,2021
Michael K. Ciacd

2>°[

